               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




         Expedited Packaging Supplies
                   Program

                        Audit Report




                                          December 28, 2011
Report Number FI-AR-12-001
                                                                     December 28, 2011

                                              Expedited Packaging Supplies Program

                                                           Report Number FI-AR-12-001




IMPACT ON:
U.S. Postal Service Domestic Products         including return procedures on each
operations, the Product Integration           order and updating guidance to reflect
group, and mailers and shippers that          changes in return policies; creating and
use packaging supplies.                       maintaining written policies and
                                              procedures for all major programs and
WHY THE OIG DID THE AUDIT:                    processes associated with the expedited
To evaluate the efficiency and                packaging supplies initiative; and
effectiveness of the expedited                creating periodic reports to compare
packaging supplies program. The               distributed volume with usage volume.
program provides packaging supplies
specifically designed for use with its        WHAT MANAGEMENT SAID:
domestic and international Express            Management agreed with the findings
Mail® and Priority Mail® services at no       and recommendations to revise
additional cost to customers.                 Publication 22 and create policies and
                                              procedures for major expedited
WHAT THE OIG FOUND:                           packaging supplies programs and
The Postal Service did not have an            processes. Management agreed in part
efficient and effective process to identify   with the other recommendations, but
and reduce waste associated with its          acknowledged the need to monitor
expedited packaging supply program or         supplies usage and reduce waste. They
a clear process in place to inform            are currently using systems to monitor
customers of return procedures for            supply inventory and/or orders. They will
unused supplies. In addition, it did not      launch the Solution for Enterprise Asset
update guidance to reflect changes to         Management in fiscal year 2013 to
return policies, have standard operating      further assist in inventorying and
procedures for major programs and             monitoring and will reevaluate programs
processes, or fully implement audit           and reports to compare distributed
recommendations from a 2005 audit in          volume with usage volume.
this area.
                                              AUDITORS’ COMMENTS:
WHAT THE OIG RECOMMENDED:                     The U.S. Postal Service Office of
We recommended implementing a                 Inspector General considers
procedure to determine the quantity of        management’s comments responsive to
expedited packaging supplies retained         the recommendations and the corrective
by major mailers, post offices, and           actions should resolve the issues
facilities that distribute supplies to        identified in the report.
customers; developing a plan to monitor
usage and identify and reduce waste;          Link to review the entire report
December 28, 2011

MEMORANDUM FOR:             GARY C. REBLIN
                            VICE PRESIDENT, DOMESTIC PRODUCTS


                                E-Signed by Denice Millett
                              VERIFY authenticity with e-Sign




                            for
FROM:                       John E. Cihota
                            Deputy Assistant Inspector General
                              for Financial Accountability

SUBJECT:                    Audit Report – Expedited Packaging Supplies Program
                            (Report Number FI-AR-12-001)

This report presents the results of our audit of the U.S. Postal Service’s expedited
packaging supplies program (Project Number 11BG010FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice Millett, director, Policy
Formulation and Financial Controls, or me at 703-248-2100.

Attachments

cc: Paul Vogel
    Deborah Giannoni-Jackson
    Margaret L. Choiniere
    John F. Gullo
    Donna Coburn
    Corporate Audit and Response Management
Expedited Packaging Supplies Program                                                                                     FI-AR-12-001



                                             TABLE OF CONTENTS
Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Inventory Control System Needs Improvement ................................................................. 2

   Developing Inventory Accountability ............................................................................... 2

   Monitoring Usage............................................................................................................. 3

   Establishing Return Procedures ..................................................................................... 6

Standard Operating Procedures ......................................................................................... 8

Prior OIG Audit Recommendations .................................................................................... 8

Recommendations .............................................................................................................. 9

Management’s Comments .................................................................................................. 9

Evaluation of Management’s Comments .......................................................................... 10

Appendix A: Additional Information................................................................................... 11

   Background .................................................................................................................... 11

   Objective, Scope, and Methodology ............................................................................. 12

   Prior Audit Coverage ..................................................................................................... 13

Appendix B: Other Impacts ............................................................................................... 14

Appendix C: Management’s Comments ........................................................................... 15
Expedited Packaging Supplies Program                                                                FI-AR-12-001



Introduction

This report presents the results of our audit of the U.S. Postal Service’s expedited
packaging supplies program (Project Number 11BG010FF000). This self-initiated audit
addresses financial and operational risks. Our objective was to evaluate the efficiency
and effectiveness of the expedited packaging supplies program. See Appendix A for
additional information about this audit.

In 1995, the Postal Service began the Expedited Packaging Supplies Program with the
introduction of flat rate envelopes and, in 2004, expanded the program with flat rate
boxes. The program provides packaging supplies specifically designed for use with its
domestic and international Express Mail® and Priority Mail® services at no additional
cost to customers. The program allows the Postal Service to:

   Generate new revenue by attracting new customers while growing business with
    existing customers.

   Increase efficiency and improve on-time delivery through clear identification of
    Express Mail and Priority Mail items in the mailstream.

   Increase customer retention and loyalty by providing packaging that fits the
    customer’s specific shipping needs.

   Reduce the number of incorrectly packaged and weak shipping containers.

In fiscal year (FY) 2010, the Postal Service spent more than $158 million 1 in Express
Mail and Priority Mail packaging supplies and reported over $7.6 billion in revenue for
these products.

Expedited packaging is Postal Service property and should only be used to send
Express and Priority Mail packages. However, because the supplies are free and readily
available at all post offices, some customers use the boxes, envelopes, and labels for
other purposes.

Conclusion

Our review disclosed that the Postal Service did not have an efficient and effective
process in place to identify and reduce waste associated with its expedited packaging
supply program. Specifically, the Postal Service could not account for at least
370 million Express and Priority Mail boxes and envelopes, at a cost of approximately
$87 million, from FYs 2008 through 2010. This represents 19 percent 2 of the total


1
 Costs associated with purchasing packaging supplies include manufacturing, shipping, and fulfillment costs.
2
 The percentage of unused or unaccounted for packaging may be much higher because customers are allowed to
mail Express and Priority Mail using their own packaging and the Post Office has no method to monitor usage when a
customer provides their own packaging. The percentage excludes international packaging.
                                                        1
Expedited Packaging Supplies Program                                                                     FI-AR-12-001



expedited packaging supplies 3 produced for this timeframe. Consequently, we identified
nearly $29 million annually as assets at risk.

In addition, management did not have a clear process in place to inform customers of
the return procedures for unused packaging supplies, did not update Publication 22 4 to
reflect current changes in return policies for co-branded packaging; 5 did not have
standard operating procedures for all the expedited packaging supply group’s major
programs and processes, and did not fully implement recommendations from a prior
U.S. Postal Service Office of Inspector General (OIG) report regarding expedited
packaging supplies. 6

Inventory Control System Needs Improvement

The Postal Service does not have an effective inventory control system over its
expedited packaging supplies. An effective system includes a process for developing
inventory accountability, monitoring usage, and establishing return procedures.

Developing Inventory Accountability

Management does not currently have effective procedures in place to determine the
quantity of expedited packaging supplies that post offices retain. A stated goal in the
Postal Service’s Supply Management Three-Year Strategic Plan 2010-2012 7 is to
improve asset management by establishing inventory visibility. In line with that goal,
management is preparing to launch the Solution for Enterprise Asset Management
(SEAM). 8 The SEAM system is intended to streamline and standardize processes,
increase accountability, optimize inventory levels, and reduce procurement and
fulfillment operating costs incurred by the Postal Service. The system will be
implemented at Point-of-Service (POS) offices, 9 which represent 48 percent of all post
offices and 92 percent of revenue. Management is considering the possibility of
enhancing the SEAM system to include non-POS offices and contract postal units. 10
The SEAM system implementation was originally scheduled for FY 2009; however,
because of development delays, the system is now scheduled for implementation in
June 2012. The Postal Service’s future plans include establishing alternative locations
for customers to conduct Postal Service business, such as Village Post Offices




3
  For this audit, packaging supplies refers to Express Mail and Priority Mail boxes and envelopes only.
4
  Expedited Packaging Supplies Standard Operating Procedures,December 2007.
5
  Co-branded packaging involves printing the brand identity of the customer on the packaging along with the service
brand identity of the Postal Service.
6
  Expedited Packaging Supplies (Report Number MS-AR-05-002, dated September 28, 2005).
7
  Supply Management Three–Year Strategic Plan 2010 –2012, dated May 18, 2010.
8
  An Oracle-based application developed to optimize inventory at distribution centers, vehicle maintenance facilities
(spare parts), and post offices (Ready Post products, including expedited packaging supplies).
9
  POS offices contain terminals that are the primary hardware and software system used to conduct sales
transactions during the post office check-out process.
10
   A contract postal unit is a Post Office located inside a retail establishment and operated by the retailer's
employees.


                                                          2
Expedited Packaging Supplies Program                                                                     FI-AR-12-001



(VPOs); 11 therefore, if expedited packaging supplies are distributed to customers at
VPO locations, the Postal Service will need to consider implementing an inventory
tracking system for these locations.

We believe the SEAM system, if implemented as intended, 12 will significantly enhance
inventory monitoring and accountability of expedited packaging supplies. Additionally, if
management developed a more complete automated inventory system for facilities that
distribute expedited packaging supplies, it would improve the tracking of Postal Service
products and help reduce waste. Specifically, improved inventory accountability helps
optimize inventory levels, reduce procurement and fulfillment operating costs, lessen
the risk of misuse, and provide management with data to make their supply chain as
effective as possible. The following picture is one example of misuse:

               Picture 1: Postal Service Box Being Turned Inside Out for Reuse




                                                                            13
                        Source: The Consumerist, dated May 1, 2008.

Another example of misuse involves customers using Postal Service expedited
packaging boxes to ship products using a competitor’s services.

Monitoring Usage

Management has not developed or implemented a comprehensive system to monitor
the use of expedited packaging supplies. Although management has implemented
programs to monitor some segments of the expedited packaging supply chain, including
fulfillment centers and major mailers, 14 these programs have not been effective in
11
   Potential replacement options for communities either lacking a Postal Service retail facility or affected by retail
optimization efforts. VPOs will operate in non-Postal Service establishments and can provide a range of postal
services.
12
   The SEAM system is intended to improve inventory management, forecasting, and auto replenishing of expedited
packaging supplies at post offices with POS.
13
   Don’t Reuse That USPS Priority Box, It’s Illegal, by Jay Slatkin.
14
   Fulfillment centers are contractor-operated distribution centers. They are responsible for processing and filling
expedited packaging supply orders for post offices and major mailers. The term “major mailers” refers to mailers who
order six pallets or more of supplies in a single order.


                                                          3
Expedited Packaging Supplies Program                                                                  FI-AR-12-001



reducing the percentage of unaccounted for 15 packaging supplies. See Appendix A for
additional information about the programs management has implemented.

In FY 2005, 16 the OIG performed an audit of the expedited packaging supplies 17 and
determined that 17 percent of the supplies 18 were unaccounted for. In this audit, we
reviewed packaging supply usage during FYs 2008 through 2010 and determined the
Postal Service could not account for approximately 370 million, or 19 percent, 19 of
Express and Priority Mail boxes and envelopes, 20 at an estimated cost of approximately
$87 million (see Table 1 for more details).

                 Table 1: Unaccounted For Expedited Packaging Supplies




     Source: Revenue, Pieces, and Weight (RPW) system; Origin Destination Information System –
                                                    21
     Revenue, Pieces and Weight (ODIS-RPW) System; and manager, Business Solutions.

Management has implemented numerous programs and processes to monitor and
reduce waste associated with the expedited packaging supplies program (see
Appendix A for more details on these programs). Despite these initiatives, the
percentage of unaccounted for packaging has increased. Consequently, we identified


15
   The term “unaccounted for” represents manufactured packaging supplies that did not enter the mailstream.
16
   The audit period for the FY 2005 audit was FYs 2000 through 2003.
17
   Expedited Packaging Supplies (Report Number MS-AR-05-002, dated September 28, 2005).
18
   Supplies include domestic Express and Priority Mail boxes and envelopes only.
19
   During FYs 2008 through 2010, the Postal Service purchased approximately 2 billion domestic Express and Priority
Mail boxes and envelopes at a cost of over $459 million; however, only 1.6 billion mailpieces entered the mailstream
during this time.
20
   Due to Postal Service system limitations, the Express Mail volume data include other packaging supply items such
as tapes and labels. As a result, these items are included in the calculation.
21
   Volume data for Express and Priority Mail were obtained from the RPW and ODIS-RPW systems, respectively.
Both Priority and Express Mail data included domestic boxes and envelopes that entered the mailstream for FYs
2008 through 2010. However, due to system limitations, Express Mail data also included other categories of supplies
such as labels and tape.


                                                         4
Expedited Packaging Supplies Program                                                                FI-AR-12-001



$28,925,734 annually as assets at risk (see Appendix B). Management stated they
could not determine the specific reason for the increase.

We acknowledge the Postal Service’s efforts to monitor pieces and validate revenue; 22
however, we believe these efforts have not successfully reduced the percentage of
unaccounted for expedited packaging supplies due, in part, to inadequate inventory
system at post offices and the following weaknesses in the process:

    Management cannot accurately determine the specific type and corresponding
     quantity of customized and specialized packaging 23 mailed by a customer to
     accurately determine whether additional shipments are needed. Management uses
     several reports to identify the number of pieces mailed, the revenue generated since
     the last shipment of supplies, and whether the customer is on track to meet their
     revenue commitment 24 for the year. If necessary, management contacts the
     customer to determine whether additional supplies are needed. Once a justification
     is deemed valid, management authorizes additional shipments of customized and
     specialized packaging; however, our review disclosed that the reports management
     use include pieces and revenue for all types of mailings. For example, the report
     may indicate that 10,000 items of Priority Mail have been mailed, but it does not
     distinguish what type of Priority Mail was shipped (flat rate boxes, envelopes,
     non-flat rate priority, customized, specialized, for example). Without the breakout by
     type, management will not know which product the customer used.

    Management does not review revenue commitments for co-branded standard,
     customized, and specialized packaging. Revenue commitments for co-branded
     products require generating $250,000 or more of revenue annually. 25 By not
     reviewing revenue commitments, the Postal Service may incur additional costs
     producing co-branded packaging for customers who are not generating the required
     annual revenue.

    The marketing specialist uses a judgmental determination based on knowledge and
     experience to determine whether additional fulfillment of supplies is warranted and
     revenue commitments are achieved. This determination is made prior to authorizing
     additional shipments of expedited packaging supplies that require revenue
     commitments. The use of a systematic method would provide a more consistent,
     objective approach to identifying acceptable thresholds and guidelines for fulfillment
     of supplies.




22
   See Appendix A for a list of the 13 programs and processes.
23
   Customized packaging consists of boxes, envelopes, cohesive packaging, and address labels that are created to
meet a customer’s specific dimensional needs. Specialized packaging consists of a predetermined set of expedited
packaging items that have proven popular with customers. These items are not maintained in inventory but instead
are produced on-demand and shipped directly to the customer.
24
   Specialized packaging customers have a minimum revenue requirement of $50,000. Customized packaging
customers have a minimum revenue requirement of $250,000.
25
   Publication 22, pages 7, 13, and 23.


                                                        5
Expedited Packaging Supplies Program                                                                FI-AR-12-001



    The Postal Service does not monitor the mailing activity of customers who order less
     than six pallets 26 of expedited packaging supplies directly from the fulfillment center.
     As a result, the Postal Service cannot identify and monitor customers who repeatedly
     order less than six pallets of packaging supplies and have not mailed a reasonable
     number of pieces since their last shipment.

The Postal Service provides expedited packaging supplies to its customers at no charge
and does not control distribution of the supplies to its customers from post offices.
Management contends that the complimentary packaging supplies are a unique selling
tool and major factor in the growth of the packaging business. However, our review of
the major competitors indicates an opportunity to enhance controls and reduce waste.
Specifically, in a recent OIG-sponsored web log (blog) soliciting comments from the
public on the expedited packaging supply services, 27 74 percent of the respondents
supported the Postal Service’s monitoring of packaging supplies to control costs. Also, a
review of the Postal Service’s competitors indicates they provide free shipping supplies
only for customers who have accounts; for customers who do not have accounts, prices
for boxes range from $1.75 to more than $20. If the Postal Service were to implement a
similar practice to monitor usage for customers who have accounts and charge
customers who do not have an account for supplies, management could improve
controls over distribution and waste.

Developing a comprehensive plan to monitor the ordering and usage of packaging
supplies will enable the Postal Service to reduce costs and identify waste related to the
expedited packaging supplies program. Misuse of expedited packaging supplies results
in additional cost to the Postal Service and violates federal law. 28

Establishing Return Procedures

Our review disclosed two weaknesses in the expedited packaging supplies return
procedures. Specifically, the Postal Service does not have a clear process in place to
inform customers of the return procedures for unused packaging supplies and has not
updated Publication 22 to reflect current changes in return policies for co-branded
packaging.

    Return Procedures — the Postal Service has specific return procedures for
     packaging supplies; 29 however, these procedures are not clearly disseminated to the
     general public. For example, during our on-site visit to one of the expedited
     packaging supply fulfillment centers, the audit team confirmed that a standard
     customer order 30 does not contain return instructions. Non-standard orders, 31 which
     are packaged into bundles, contain packaging slips listing a toll-free number to

26
   Management performed a study and determined it was cost advantageous to ship six pallets or more of supplies
directly from the manufacturer to the customer.
27
   Expedited packaging supplies blog, http://blog.uspsoig.gov/?p=4846#.
28
   U.S.C.Title 18, § 1707.
29
   Publication 22, pages 7, 12, 22, and 23.
30
   Standard orders are pre-bundled expedited packaging supplies.
31
   Non-standard orders are single pieces used to fill orders.


                                                        6
Expedited Packaging Supplies Program                                                                      FI-AR-12-001



     report problems with the order. The audit team called the toll-free number and
     determined that, while there was a prompt for other matters, there was no specific
     prompt for processing returns. One individual, who identified himself as a mail
     service provider, posted the following comment on our OIG external blog about his
     difficulty in returning expedited packing supplies:

            I have been sent USPS (packaging materials) in excess of my
            needs. I have two pallets of Priority Drop Ship Open and Distribute
            tray boxes that I do not use. I have had them in my warehouse for
            almost two years. I have contacted the USPS in an attempt to
            return the (packaging) materials, but oddly there is no system for
            returns…of these materials. I have cartons of flat rate Priority
            envelopes and boxes as well left over from mailing projects. I must
            have several thousand dollars worth of postal packaging in my
            warehouse not creating anything but cost to the USPS.

        Co-branded Packaging — management has not updated Publication 22 32 to
         reflect current changes in return policies. Specifically, Publication 22 currently
         does not allow co-branded customized and specialized packaging to be returned,
         nor does it provide specific information for standard 33 co-branded packaging
         returns. However, Postal Service Headquarters implemented a process in which
         customers can return co-branded packaging supplies, which the Postal Service
         then uses internally to ship stamp stock from stamp distribution offices to post
         offices. Management stated that the current process implemented by
         headquarters is an unofficial policy created in an effort to use returned
         co-branded packaging. In the past, management has not had procedures in
         place to accommodate co-branded packaging returns from customers who
         requested product changes or no longer need the packaging. We believe the
         Postal Service’s internal reuse of returned co-branded packaging supplies is a
         creative, cost-effective, and environmentally friendly way to use returned
         customer supplies. The changes management implemented should be
         documented in Postal Service policies to provide consistency and transparency
         in the procedures and guidance for customers who may not be familiar with the
         unofficial process.

The May 17, 2011 testimony of the postmaster general outlined guiding principles for
ensuring the future growth of the Postal Service by improving the customer experience
and making it easy and convenient for people to do business with the Postal Service. 34
By not developing clear and concise return procedures, the Postal Service could incur
additional expenses by purchasing unnecessary expedited packaging supplies and
jeopardize its goodwill with the public.


32
   Publication 22, pages 7, 12, and 22.
33
   Standard packaging includes in-stock envelopes, boxes, and tubes.
34
   Statement of Patrick R. Donahoe, postmaster general, chief executive officer, before the U.S. Senate
Subcommittee – May 17, 2011.


                                                         7
Expedited Packaging Supplies Program                                                                  FI-AR-12-001



Standard Operating Procedures

The Expedited Packaging Supplies group does not maintain complete written policies
and procedures for all its operations. Our research indicated that an effective
management control system 35 includes development of policies, procedures, and
practices that ensure management can achieve their objectives. Specifically,
management could not provide standard operating procedures or guidelines for five 36 of
the 13 programs and processes they identified to monitor and reduce waste associated
with expedited packaging supplies. Management stated they rely on employees’
experience, personal knowledge, and information gained from on-the-job training to
perform the duties and responsibilities associated with these programs and processes.
However, without written policies and procedures, management cannot maintain an
effective management control system, ensure that work is performed consistently, and
use the programs and processes effectively.

Some types of work completed by the Expedited Packaging Supplies group, such as
revenue validation and monthly calendar procedures, are performed routinely and could
benefit from having written procedures. Development of written policies and procedures
would also help focus the work on the core functions of the organization and set
standards for products and services. In addition, management can use these policies
and procedures to train employees who join the Expedited Packaging Supplies group
and as a reference source for current employees on their roles and how to perform their
assigned tasks. Furthermore, written policies and procedures can assist management in
assessing performance and establishing accountability. Written policies and procedures
would allow the Expedited Packaging Supplies group to be more productive and allow
management to focus more time on strategic development and less on day-to-day
operations.

Prior OIG Audit Recommendations

Management did not fully address a previous audit recommendation to conduct an
annual review of customer use of expedited packaging supplies. 37 Management agreed
to institute a revised method of measuring customer supply usage via mail sampling
data. The anticipated result was to produce periodic reports comparing distributed
volume with usage volume. During our audit, management stated they created the Flat
Rate Packaging Report to address the recommendation. Management produces the
report monthly to track revenue and volume for flat rate boxes. However, we determined
the report only encompasses flat rate boxes, which averaged 10 percent of the total
expedited packages shipped between FYs 2008 and 2010. By not conducting an annual
review of customer use of all types of expedited packaging supplies, the Postal Service

35
   In 1992, the Committee of Sponsoring Organizations of the Treadway Commission issued a report on internal
control framework. This framework has been widely accepted as providing a sound basis for establishing internal
control systems and determining their effectiveness. One of the five key elements of the framework is development of
policies and procedures.
36
   The five programs include: revenue validation, minimum shipments, monthly calendar, reuse of supplies, and
design of cost-effective customized packaging.
37
   Expedited Packaging Supplies (Report Number MS-AR-05-002, dated September 28, 2005).



                                                         8
Expedited Packaging Supplies Program                                           FI-AR-12-001



cannot determine whether the cost of unaccounted for expedited packaging supplies is
acceptable.

Recommendations

We recommend the vice president, Domestic Products, direct the program manager,
Expedited Packaging Supplies group, to:

1. Implement a comprehensive, integrated procedure to determine the quantity of
   expedited packaging supplies retained by major mailers, post offices, and other
   facilities that distribute the Postal Service’s expedited packaging supplies to
   customers.

2. Develop a comprehensive plan to monitor usage and identify and reduce waste
   associated with expedited packaging supplies.

3. Include clear and concise return procedures on each order and update Publication
   22, Expedited Packaging Supplies Standard Operating Procedures, to reflect current
   changes in return policies.

4. Create and maintain written policies and procedures for all major programs and
   processes associated with the expedited packaging supplies initiative.

5. Create periodic reports to compare distributed volume with usage volume for all
   types of expedited packaging supplies.

Management’s Comments

Overall, management generally agreed there are opportunities for improvement in
managing and monitoring expedited packaging supplies. Management noted they have
initiatives underway to address these opportunities as well as other programs already
implemented such as the priority mail flat rate boxes, specialized envelopes, and
forever postage rates for priority mail flat rate packages. For recommendations 1 and 2,
management agreed, in part, and acknowledged the need for comprehensive
automated procedures to monitor supplies and reduce waste associated with expedited
packaging materials. Management uses the fulfillment center’s warehouse management
system to determine the quantity of expedited packaging supplies located at the
fulfillment centers and the quantity sent to every address. In addition, the marketing
information system is currently used for revenue validation for all reorders of customized
and specialized packaging and direct vendor deliveries. Further, management will
launch the SEAM as a pilot by June 2012 and nationally in early FY 2013. SEAM will
improve inventory management, forecasting, and auto replenishing of expedited
packaging supplies at post offices with POS systems.

Management agreed with recommendations 3 and 4 and stated they are currently
reviewing and revising Publication 22 to include clear and concise return procedures.



                                            9
Expedited Packaging Supplies Program                                        FI-AR-12-001



Management estimates releasing the revised publication in January 2012. In addition,
management will reevaluate Publication 22 and create new written policies and
procedures for all major programs and processes associated with standard, specialized,
and customized packaging.

For recommendation 5, management agreed, in part, and stated they produce a variety
of reports that cover standard, specialized, and customized packaging programs but
agreed to reevaluate these programs and reports to measure their effectiveness and
update as necessary.

See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
the corrective actions should resolve the issues identified in the report. The OIG
considers recommendations 1, 2, and 3 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

Management did not provide an estimated completion date for reevaluating and
updating, as necessary, reports that cover packaging programs (recommendation 5).
We believe timely review and creation or update of these reports will further enhance
the Postal Service’s monitoring of the expedited packing supply program and further
reduce associated waste. Because of management’s planned efforts, we will not pursue
resolution of this recommendation.

Finally, we agree that management has made major strides in offering several new and
innovative packaging options, but believe the Postal Service could realize additional
savings and/or revenue by tightening internal controls over expedited packaging
supplies.




                                          10
Expedited Packaging Supplies Program                                            FI-AR-12-001



                                    Appendix A: Additional Information

Background

The Postal Service offers a variety of domestic shipping products and services, from
overnight delivery to media mail. Their vision is to grow overall annual package revenue
by 5 percent. The Postal Service claims they can increase their market share by offering
customers excellent service, innovative products, and competitive pricing. Their delivery
network reaches every household and business in the nation and they are committed to
being the market leader in delivery of small packages. Their mission is to build on their
core shipping capabilities to increase market share and profitability.

The Postal Service provides packaging supplies specially designed for use with its
domestic and international Express Mail and Priority Mail at no additional cost to
customers. Packaging items include corrugated containers, Tyvek®, and paperboard
envelopes; as well as a range of pressure sensitive labels, tapes, and decals.

The Postal Service’s average cost of packaging supplies is included in the current rate
structure of the corresponding delivery service. Although the customer receives the
packaging items at no added cost, Postal Service employees should be aware that
these packaging items create real cost to the Postal Service — costs offset only by
revenue generated by the corresponding service. The customer must, therefore, use
items in their intended manner in order for the cost to be recovered.

Management has implemented the following 13 programs and processes to monitor
usage and reduce waste:

      Warehouse Data Management System.
      Monthly production calendar.
      Flat Rate Packaging Report.
      Revenue validation (large supply requests).
      Reuse of unused packaging supplies.
      Repeat order validation.
      Training for customer service representatives.
      Fulfillment center returns.
      Analysis of specialized packaging program.
      Examine minimum shipments of custom/co-branded packaging.
      Designing cost-effective customized packages.
      Direct vendor deliveries for six pallets or more.
      SEAM system.

To comply with the Postal Accountability and Enhancement Act (Postal Act) of 2006,
Shipping Services, also known as competitive products, which include Express and
Priority Mail, must produce sufficient revenue above a price floor that covers attributable
costs 38 for each competitive product, for the competing products collectively, and for
38
     Direct and indirect costs associated with each postal product.


                                                            11
Expedited Packaging Supplies Program                                                                     FI-AR-12-001



shipping services as a whole; and to cover an appropriate share of institutional costs. 39
During FY 2010, revenue generated from Express and Priority Mail services exceeded
corresponding attributable costs, resulting in a net profit of approximately $2.2 billion. 40

In 2005, the fulfillment center contract was awarded through a competitive bidding
process to supply expedited packaging products to customers and post offices. The
contract was granted for 4 years with three 2-year options; two of the three options have
already been exercised.

The fulfillment centers are in Plainfield, IN and Hayward, CA. According to fulfillment
center management, these locations process 81 percent and 19 percent, respectively,
of all expedited packaging orders. The Plainfield fulfillment center receives all orders via
several channels: telephone, facsimile, mail, and online. The processed orders are sent
to the Postal Service’s national distribution centers and are then handled as regular
mail.

Objective, Scope, and Methodology

The objective of our audit was to evaluate the efficiency and effectiveness of the
expedited packaging supplies program. To accomplish our objectives we:

      Interviewed Marketing, Expedited Packaging Supplies group, and Supply
       Management personnel at Postal Service Headquarters; and fulfillment center
       personnel.

      Obtained and reviewed expedited packaging supply data for FYs 2008 through
       2010.

      Evaluated compliance with the Postal Act of 2006.

      Evaluated procedures the Postal Service implemented to identify and reduce waste
       related to expedited packaging supplies.

      Researched the benefits of maintaining written policies and procedures.

      Hosted a blog related to expedited packaging supplies.

      Benchmarked with competitors to determine policies and procedures related to
       packaging supplies.

We conducted this performance audit from December 2010 through December 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate

39
     The shared overhead costs of the Postal Service.
40
     This amount does not include Inbound International Expedited Services (foreign express mail service).


                                                           12
Expedited Packaging Supplies Program                                                                    FI-AR-12-001



evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on November 4, 2011, and included
their comments where appropriate.

We assessed the reliability of the RPW system, Cost and Revenue Analysis system,
and Electronic Data Warehouse system data by judgmentally comparing system data to
source documentation. We determined the data were sufficiently reliable for the
purposes of this report.

Prior Audit Coverage

Our Expedited Packaging Supplies 41 report identified that the Expedited Packaging
Supplies group effectively provided supplies to customers but could not monitor
customer supply usage and did not have effective controls over ordering. Also,
management needed stronger controls over expedited packaging tape to deter potential
waste. During the audit, the Postal Service changed its policy over expedited packaging
tape, resulting in 2-year projected savings of $4 million.

The OIG recommended management conduct reviews of customer use of expedited
packaging supplies and minimum and maximum customer orders, clarify the Business
Service Network’s 42 ordering authority, and direct district managers to eliminate local
product fulfillment operations. Management agreed, in whole or in part, with the
recommendations and had initiatives planned, in progress, and completed addressing
issues in the report.




41
   Report Number MS-AR-05-002, dated September 28, 2005.
42
   A dedicated nationwide network that supports the Postal Service’s largest customers for service issues,
information, and needs requests.


                                                         13
Expedited Packaging Supplies Program                                                FI-AR-12-001



                                           Appendix B: Other Impacts

                  Finding                            Impact Category       Amount
             Inventory Control
               System Needs                           Assets at Risk 43   $57,851,468
               Improvement

The other impact (assets at risk) calculation is based on the yearly average of
19 percent of unaccounted for expedited packaging supplies identified from FYs 2008
through 2010. The 19 percent represents $28,925,734 yearly for the purchase,
fulfillment, and transportation costs for packaging supplies. We calculated the amount
for a projected 2-year period.

The calculation method is consistent with the one used in a prior OIG audit titled
Expedited Packaging Supplies (Report Number MS-AR-05-002, dated September 28,
2005). Specifically, the quantity of supplies manufactured was compared to the quantity
of expedited packaging mailed and the difference was classified as “unaccounted for”.
The difference was compared to the calculated amount from the prior OIG report and
the percentage of packaging supplies unaccounted for increased from 17 to 19 percent.
In both audits, the quantity of Priority Mail supplies only included boxes and envelopes
and Express Mail supplies also included other items such as tapes and labels due to
Postal Service system limitations.




43
     Assets at risk of loss because of inadequate internal controls.


                                                             14
Expedited Packaging Supplies Program                         FI-AR-12-001



                         Appendix C: Management’s Comments




                                        15
Expedited Packaging Supplies Program        FI-AR-12-001




                                       16
Expedited Packaging Supplies Program        FI-AR-12-001




                                       17
